No. 20-291
IN THE

Supreme Court of the United States
JAMELL BIRT,
Petitioner,
v.
UNITED STATES,
Respondent.

____________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h), I certify this 5th day of October, 2020, that the Brief for the National
Association of Criminal Defense Lawyers as Amicus Curiae Supporting Petitioner
contains 4,694 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

David J. Zimmer
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1192
Counsel for Amicus Curiae
October 5, 2020

